APPENDIX A

APPENDIX A
Appx.001

Case 2:16-cv-0144?-APG-NJK Document 28 Filed 02/26/18 Page 1 of 9

1

UNITED STATES DISTRICT COURT

2

DISTRICT OF NEVADA

3

***

4

UNITED STATES OF AMERICA ex rel.
CHRISTINA ELLIS and JONATHAN
ELLIS, Relators,

5
6

Plaintiffs,

7

v.

Case No. 2:16-cv-01447-APG-NJK

ORDER GRANTING MOTION FOR
SUMMARY JUDGMENT
(ECF No. 24)

8

JING SHU ZHENG and SJ 5318
INVESTMENT CORP.,

9

Defendants.

10
11

Plaintiffs Christina and Jonathan Ellis bring a qui tarn action on behalf of the United

12

States pursuant to the False Claims Act, 31 U.S.C. § 3729, et seq. The Ellises assert that

13

defendants Jing Shu Zheng and SJ 5318 Investment Corp. (SJ 5318) misrepresented the amount

14

of rent Zheng was charging the Ellises, whose rent was being subsidized by the United States

15

Department of Housing and Urban Development (HUD). A clerk’s entry of default has been

16

entered as to SJ 5318 Investment Corp. ECF No. 17. The Ellises now seek summary judgment

17

against Zheng on their FCA claim. i

18

I.

BACKGROUND

19

In March 2013, the Ellises leased from Zheng a house at 4411 Melrose Abbey Place, Las

20

Vegas, Nevada (the “Property”). ECF No. 24 at 6. SJ 5318 acted as Zheng’s agent and property

21

manager. ECF Nos. 27 at 4; 27-1. The Ellises signed a lease agreement on March 22, 2013

22

indicating a total monthly rent of $2,300. ECF No. 24-3.2

23

i

24
25
26
27
28

Zheng filed a counter-claim alleging a breach of the lease agreement and damage to the
apartment upon the Ellises vacating. This order does not address those claims.
2 The Ellises also produce a second lease dated April 10, 2013, indicating a total monthly rent of
$2,000. ECF No. 24-4. This lease is initialed by the Ellises, but the signatures are dated March
22, 2013. Id.; see also ECF No. 24-12 at 3, 5 (the Ellises averring they entered into two leases on
or around March 22, 2013). Zheng states she never saw the second lease and would not have
signed it. ECF No. 26 at 2. Whether this is a valid lease is immaterial for the purposes of this
motion, as Zheng charged the Ellises as per the first executed lease.

Appx.002

Case 2:16-cv-Q1447-APG-NJK Document 28 Filed 02/26/18 Page 2 of 9

1

On March 18, 2013, Zheng submitted a Request for Tenancy Approval to the Southern

2

Nevada Regional Housing Authority (SNRHA) asking that the Property be considered for

3

approval under the Section 8 Tenant-Based Housing Choice Voucher Program. ECF No. 24-5.

4

Under Section 8, HUD enters into annual contribution contracts with regional public housing

5

agencies across the United States, including the SNRHA. 24 C.F.R. § 982.151. Pursuant to the

6

contribution contract, the SNRHA makes monthly housing assistance payments to landlords on

7

behalf of eligible tenants. See id. § 982.451. The contract between the SNRHA and a landlord is

8

known as a Housing Assistance Payments (HAP) Contract. Id.

9

The Request for Tenancy Approval submitted by Zheng proposed a monthly rent of

10

$2,000. ECF No. 24-5. On April 10, 2013, SJ 5318 entered into a HAP Contract with the

11

SNRHA on Zheng’s behalf. ECF No. 24-1. The HAP Contract contained the terms of the

12

SNRHA’s payment assistance to Zheng on behalf of the Ellises. Part A of the HAP Contract lists

13

the “rent to owner” as $2,000, of which $456 would be paid by the SNRHA every month as a

14

housing assistance payment pursuant to Section 8. Id. at 3. Parts B and C of the HAP Contract

15

provide, in relevant part, that: (1) the lease shall be consistent with the HAP Contract; (2) the rent

16

payment may at no time exceed the reasonable rent as determined by the SNRHA; (3) except for

17

the “rent to owner” payment, the owner may not accept any additional payment for rent of the

18

unit; and (4) unless the owner has complied with all provisions of the HAP Contract, the owner

19

does not have a right to receive housing assistance payments under that contract. Id. at 6, 7, 10.

20

Zheng received a Notice of Rent Payment and Program Abuse Warning Information,

21

which notifies the owner that the HAP Contract will begin. ECF No. 24-2. The notice states that

22

“[Requiring extra (‘side’) payments in excess of the family’s share of rent as listed ... is

23

considered program fraud” and will lead to the termination of the owner and family from the

24

Housing Choice Voucher Program. Id. Throughout the Ellises’ tenancy, Zheng received seven

25

SNRHA Notice of Change forms notifying her of increases in the monthly HAP payment but

26

indicating the total rent to owner remained $2,000. ECF No. 24-6.

27
28
Page 2 of 9

Appx.003

Case 2:16-cv-Q1447-APG-NJK Document 28 Filed 02/26/18 Page 3 of 9

Although the HAP Contract stated the rent was $2,000, from April 2013 to January 2015,

1
2

the Ellises deposited $2,300—their monthly rental share and the extra $300 under the March 22

3

lease—directly into Zheng’s bank account. ECF Nos. 24 at 9-10; 24-8; 24-9; 24-10. Zheng

4

received twenty-two payments from the SNRHA under the HAP Contract for a total of $18,722.

5

ECF No. 24-11. The Ellises moved out in January 2015, two months before the expiration of

6

their lease agreement. ECF No. 12 at 2.

7
8
9

II.

ANALYSIS
Summary judgment is appropriate if the pleadings, discovery responses, and affidavits

demonstrate “there is no genuine dispute as to any material fact and the movant is entitled to

10

judgment as a matter of law.” Fed. R. Civ. P. 56(a), (c). A fact is material if it “might affect the

11

outcome of the suit under the governing law.” Anderson v. Liberty Lobby, Inc., All U.S. 242, 248

12

(1986). An issue is genuine if “the evidence is such that a reasonable jury could return a verdict

13

for the nonmoving party.” Id.

14

The party seeking summary judgment bears the initial burden of informing the court of the

15

basis for its motion and identifying those portions of the record that demonstrate the absence of a

16

genuine issue of material fact. Celotex Corp. v. Catrett, All U.S. 317, 323 (1986). The burden

17

then shifts to the non-moving party to set forth specific facts demonstrating there is a genuine

18

issue of material fact for trial. Fairbank v. Wunderman Cato Johnson, 212 F.3d 528, 531 (9th Cir.

19

2000). I view the evidence and draw reasonable inferences in the light most favorable to the non­

20

moving party. James River Ins. Co. v. Hebert Schenck, P.C., 523 F.3d 915, 920 (9th Cir. 2008).

21

A. Agency Relationship Between Zheng and SJ 5318

22

Zheng’s primary argument in opposition is that SJ 5318, not her, signed the HAP

23

Contract. She contends that SJ 5318 managed the Property and “t[ook] care of everything” for

24

her. ECF No. 26 at 1. The Ellises respond that Zheng is liable for SJ 5318’s violations of the

25

FCA because it had actual authority to act on her behalf.

26
27
28
Page 3 of 9

Appx.004

Case 2:16-cv-01447-APG-NJK Document 28 Plied 02/26/18 Page 4 of 9

1

“The general principles of the federal common law of agency have been formulated

2

largely based on the Restatement of Agency.” Doe I v. Unocal Corp., 395 F.3d 932, 972 (9th Cir.

3

2002), on reh ’g en banc, 403 F.3d 708 (9th Cir. 2005).

4
5
6

./
The principles of agency law ... are well settled: actual authority consists of
powers which a principal directly confers upon an agent, as well as those the
principal causes or permits the agent to believe he or she possesses] ....
Apparent authority focuses on third parties. It arises when a third party
reasonably believes that the putative agent had authority to act on behalf of the
principal and that belief can be traced to the principal’s own manifestations.

7

8

Kristensen v. Credit Payment Svcs., 12 F. Supp. 3d 1292, 1301 (D. Nev. 2014) (internal quotation

9

and citation omitted). In the context of the FCA, “[w]hen an agent acts in the name of the

10

entity ... the fraudulent intent of the agent is indistinguishable from the intent of the entity. So

11

long as the agent has actual or apparent authority to bind the entity, the fraud of the agent is

12

sufficient to support civil liability against the entity.” United States ex rel. Rosales v. S. F. Hous.

13

Auth., 173 F. Supp. 2d 987, 1003 (N.D. Cal. 2001).

14

Here, Zheng signed an SNRHA Statement of Property Ownership/Authorization form in

15

which she designated SJ 5318 as her agent and authorized it to act on her behalf. ECF No. 27-1.

16

This form, as well as Zheng’s statements that SJ 5318 managed her property and took care of

17

everything for her, are sufficient to show that SJ 5318 acted with actual authority to bind Zheng

18

to the HAP Contract.

19

B. The FCA Claim

20

Under the False Claims Act (FCA), a private individual is authorized to bring an action on

21

behalf of the United States against any entity that has knowingly presented a false or fraudulent

22

claim to the United States government. See, e.g., United States ex rel. Anderson v. N. Telecom, 52

23

F.3d 810, 812-13 (9th Cir. 1995). The FCA makes liable anyone who “knowingly presents, or

24

causes to be presented, a false or fraudulent claim for payment or approval” to the United States

25

government. 31 U.S.C. § 3729(a)(1). To establish liability under the FCA, a plaintiff must show:

26

“(1) a false statement or fraudulent course of conduct; (2) made with scienter; (3) that was

27
28
Page 4 of 9

Appx.005

Case 2:16-cv-01447-APG-NJK Document 28 Filed 02/26/18 Page 5 of 9

1

material, causing (4) the government to pay out money or forfeit moneys due.” United States ex

2

rel. Hendow v. Univ. of Phoenix, 461 F.3d 1166, 1174 (9th Cir. 2006).

3
4

1. False Statement or Fraudulent Course of Conduct
A party can sufficiently establish this first element under a theory of express or implied

5

false certification. United States ex rel. Ebeid v. Lungwitz, 616 F.3d 993, 995 (9th Cir. 2010).

6

Express certification occurs when “the entity seeking payment certifies compliance with a law,

7

rule or regulation as part of the process through which the claim for payment is submitted.” Id.

8

“The Housing Choice Voucher Program Guidebook published by HUD defines ‘fraud’

9

and ‘abuse’ in the Section 8 program as: a single act or pattern of actions made with the intent to

10

deceive or mislead, constituting a false statement, mission, or concealment of a substantive fact.”

11

United States ex rel. Sutton v. Reynolds, 564 F. Supp. 2d 1183, 1187 (D. Or. 2007). The

12

Guidebook also states that “[collecting extra or ‘side’ payments in excess of the family share of

13

rent or requiring the family to perform extraordinary services in lieu of payments” qualifies as

14

fraud or abuse. HUD, Housing Choice Voucher Program Guidebook 22-2 (April 2001),

15

https://www.hud.gov/program offices/administration/hudclips/guidebooks/7420.1OG.

16

Here, SJ 5318 certified on behalf of Zheng in the HAP Contract that (1) except for the rent

17

to owner payment, she did not receive and would not receive any other payments or contributions

18

for rental of the Property; and (2) the terms of the lease were in accordance with all provisions of

19

the HAP Contract. ECF No. 24-1 at 7, 10. Zheng does not dispute that she charged S300 above

20

the “rent to owner” amount listed in the HAP Contract. Therefore, no genuine issue of fact

21

remains that charging the extra rent was a fraudulent course of conduct under the FCA.

22
23

2. Scienter
The Ellises argue that because Zheng signed a Request for Tenancy Approval indicating

24

$2,000 as the proposed rent, entered into the HAP Contract setting rent at $2,000, and received a

25

Notice of Rent Payment and Program Abuse indicating the rent to the owner was $2,000, she

26

knew or should have known she was not allowed to charge rent in excess of the HAP Contract.

27
28
Page 5 of 9

Appx.006

Case 2:16-cv-01447-APG-NJK Document 28 Filed 02/26/18 Page 6 of 9

1

Zheng’s only response is that she did not sign the HAP Contract. As discussed above, SJ 5318

2

had actual authority to bind Zheng to that agreement.

3

The FCA defines “knowing” and “knowingly” as having actual knowledge of the

4

information, acting in either deliberate ignorance, or acting in reckless disregard for the

5

information’s truth or falsity. 31 U.S.C. § 3729(b)(1)(A). When SJ 5318 executed the HAP

6

Contract on Zheng’s behalf, she agreed to comply with its provisions. Various sections of the

7

HAP make clear that additional payments above the specified “rent to owner” are prohibited.

8

Zheng does not dispute that she received the Notice of Rent Payment and Program Abuse

9

Warning indicating the rent to owner was $2,000 and that charging above this amount constituted

10

fraud. Nor does she dispute she received the Notice of Change forms, each of which indicated the

11

$2,000 rent. Even considering only the first lease signed by the parties, which indicated a rent of

12

$2,300, the HAP Contract states that when there are conflicts between the terms of the lease

13

agreement and the terms of the HAP Contract, the HAP Contract controls. Therefore, even

14

viewing the facts in the light most favorable to the defendants, no genuine issue of fact exists that

15

Zheng deliberately ignored or recklessly disregarded the terms of the HAP Contract when she

16

charged the Ellises an extra $300 in rent while simultaneously receiving housing payments.

17

3. Materiality

18

The third element of an FCA claim requires that a false statement or course of conduct “be

19

material to the Government’s decision to pay out moneys to the claimant.” See Hendow, 461 F.3d

20

at 1172; see also Ebeid, 616 F.3d at 997. There must be a causal relationship between the

21

fraudulent conduct and the government’s loss. Hendow, 461 F.3d at 1172.

22

Part B, section 7(b) of the HAP Contract states that the owner does not have a right to

23

receive housing assistance payments unless she has complied with all provisions of the contract.

24

ECF No. 24-1 at 6. The HAP Contract and federal regulations prohibit Zheng from charging any

25

payment for rent in addition to the “rent to owner.” Id. at 10; 24 C.F.R. § 983.353(b)(2)-(3).

26

Zheng’s collection of more than the specified “rent to owner” amount from the Ellises affected a

27

basic term of the HAP contract and was relevant to the government’s decision to continue to pay

28
Page 6 of 9

Appx.007

Case 2:16-cv-0144(r-APG-NJK Document 28 Plied 02/26/18 Page 7 of 9

1

Zheng monthly subsidies. See Sutton, 564 F. Supp. 2d at 1189. Therefore, no genuine issue of

2

fact exists as to the materiality of Zheng’s conduct to the government’s decision to pay out

3

money.

4
5

4.

Causing the Government to Pay Out Money

The Ellises state, and Zheng does not dispute, that the SNRHA paid out moneys on their

6

behalf to Zheng. Under the fourth element, the fraudulent conduct must have caused the

7

government to pay out moneys. Hendow, 461 F.3d at 1177. The SNRHA receives annual

8

contribution payments from HUD pursuant to Section 8 and uses those funds to subsidize rent

9

payments for qualified applicants. Therefore, no genuine issue of material fact exists that the

10

government paid out moneys pursuant to the HAP Contract based upon Zheng’s confirmation that

11

she was acting in compliance with that contract.

12
13

Because no genuine issue of fact exists on any of the four elements of the FCA claim, I
grant summary judgment to the Ellises on their FCA claim against Zheng.

14

C. Damages

15

Under the FCA, a violator is liable to the government for a civil penalty of not less than

16

$5,500.00 and not more than $11,000.00, plus three times the amount of damages which the

17

government sustains because of the violator’s acts. 31 U.S.C. § 3729(a)(1)(G); 28 C.F.R.

18

§ 85.3(a)(9).

19
20

1. Civil Penalties
Each violation of the FCA gives rise to separate liability and therefore a separate civil

21

penalty. Hendow, 461 F.3d at 1170-71. The Ellises aver that they deposited into Zheng’s bank

22

account the rent under the HAP Contract, “along with $300 payment from April 10, 2013 to

23

January 2015 . . . .” ECF No. 24-12 at 3, 5; see also ECF Nos. 24-9; 24-10 (transaction receipts

24

for $300 from June 2013 through January 2015). Zheng offers no evidence in opposition.

25

Therefore, there are no issues of fact that the Ellises were charged the extra $300 in rent 22 times.

26

“[I]n determining the amount of the penalty, the district court should consider (1) the good

27

or bad faith of the defendants; (2) the injury to the public; (3) the defendant’s ability to pay; and

28
Page 7 of 9

Appx.008

Case 2:16-cv-01447-APG~NJK Document 28 Filed 02/26/18 Page 8 of 9

1

(4) the necessity of vindicating the authority of the responsible federal agency.” Fed. Elec.

2

Comm ’n v. Furgatch, 869 F.2d 1256, 1258 (9th Cir. 1989). The Ellises argue that the maximum

3

penalty is warranted by the government’s interest in preventing fraud. They do not argue that

4

Zheng acted in bad faith, nor is there any evidence to that effect. There is an injury to the public

5

in that HUD could have entered a different contract with a compliant owner, subsidizing another

6

needy renter, however the extent of this injury is not well-defined. Finally, Zheng is representing

7

herself pro se, and states that she cannot afford legal representation. This leads to the inference

8

that she may not be able to pay the maximum penalties. The appropriate penalty is $5,500 per

9

violation. Zheng is thus liable for $121,000 in civil penalties.

10

2. Treble Damages

11

“The FCA, itself, instructs the district court to treble damages ....” United States v.

12

Bourseau, 531 F.3d 1159, 1173 (9th Cir. 2008); see also 31 U.S.C. § 3729 (requiring treble

13

damages except in certain circumstances in which the violator cooperates, in which case no less

14

than double damages may be assessed). “Ordinarily the measure of the government’s damages

15

[under the FCA] would be the amount that it paid out by reason of the false statements over and

16

above what it would have paid if the claims had been truthful.” United States v. Mackby, 339 F.3d

17

1013, 1018 (9th Cir. 2003) (alteration in original). In Mackby, the Ninth Circuit noted that had

18

the defendant “been truthful, the government would have known that he was entitled to nothing.”

19

Id. at 1019; see also United States v. Baran, No. CV 14-02639 RGK (AJWx), 2015 WL 5446833,

20

at *8 (C.D. Cal. Aug. 28, 2015) (“Had Defendant been truthful about the extra payments she was

21

receiving from Plaintiff, the government would not have distributed those monthly payments.”).

22

The HAP Contract here states that an owner who does not comply with the contract’s

23

requirements - including the requirement not to charge extra rent - “does not have a right to

24

receive housing assistance payments.” ECF No. 24-1 at 6. The Ellises have produced evidence

25

showing that the entire time Zheng was getting payments from SNRHA, she was also charging

26

them $300 in extra payments. Had Zheng been truthful about these payments, she would not

27

have had a right to receive any housing assistance payments from the government. See Baran,

28
Page 8 of 9

Appx.009

Case 2:16-cv-0144/-APG“NJK Document 28 Filed 02/26/18 Page 9 of 9

1

2015 WL 5446833, at *8; Cummings v. Hale, No. 15-cv-04723-JCS, 2017 WL 3669622, at *9-10

2

(N.D. Cal. May 17, 2017). According to SNRHA records, Zheng received a payment from the

3

government every month from April 2013 through January 2015, for a total of $18,722. ECF No.

4

24-11. The treble damages provision of the FCA makes Zheng liable for damages of $56,316.00.

5
6

III.

CONCLUSION
IT IS THEREFORE ORDERED that the plaintiffs’ motion for summary judgment (ECF

7

No. 24) is GRANTED. A penalty is entered against Zheng and in favor of the United States in

8

the amount of $ 121,000.00, and a damages award is entered against Zheng and in favor of the

9

United States in the amount of $56,316.00, for a total amount of $177,316.00.

10
11
12

IT IS FURTHER ORDERED that the parties shall file a proposed joint pre-trial order on
Zheng’s counterclaims and the claims against SJ 5318 within 30 days of this order.
DATED this 26th day of February, 2018.

13
14
15

<22^
ANDREW P. GORDON
UNITED STATES DISTRICT JUDGE

16
17
18
19
20
21
22
23
24
25
26
27
28
Page 9 of 9

Appx.010

4

APPENDIX B

V.

APPENDIX B
Appx.011

Case 2:16-cv-01447-APG-NJK Document 62 Filed 10/16/18 Page 1 of 2

UNITED STATES DISTRICT COURT

1

DISTRICT OF NEVADA

2i

* * *

4
5

UNITED STATES OF AMERICA ex rel.
CHRISTINA ELLIS and JONATHAN
ELLIS. Relators.

7

8

FINDINGS OF FACT, CONCLUSIONS
OF LAW, AND ORDER FOR ENTRY
OF JUDGMENT IN FAVOR OF
PLAINTIFFS/COUNTERCLAIM
DEFENDANTS

Plaintiffs,

6
v.

JING SHU ZHENG and SJ 5318
INVESTMENT CORP.,

9

Case No. 2:16-cv-01447-APG-NJK

:

Defendants.

10
11
12j

On October 16, 2018,1 conducted a non-jury trial of the counterclaims asserted in this
case by defendant Jing Shu Zheng (“Zheng”). As required by Federal Rule of Civil Procedure

141

52(a), I hereby enter my findings and conclusions.

15,

FINDINGS OF FACT

16
1.
On March 22, 2013, Jonathan and Christina Ellis executed a lease to rent from
17
jJ Zheng the dwelling located at 4411 Melrose Abbey Place, Las Vegas, Nevada (“the House”). A
19 portion of the lease was admitted into evidence at trial as Exhibit 1. The lease required rental
20 payments of $2,300 per month. The lease was to expire on March 31, 2015.
21
22

2.

According to the lease agreement, the total security deposit was $2,500: $2,300 as

a security deposit and $200 as a key/remote deposit.

23
3.

The Ellises provided Zheng or her agent the deposit of $2,500 at move in.

4.

The Ellises moved in to the House on March 22, 2013. They lived at the House

until January 31.2015.

Appx.012

I

Case 2:16-cv-01447-APG-NJK Document 62 Filed 10/16/18 Page 2 of 2

5.

1

At the end of November. 2014, the Ellises submitted a 30-day notice that they

2 would vacate the House. They moved out at the end of J anuary, 2015.

4
5

The lease does not include an early termination provision.

7.

Zheng did not return the Ellises's security deposit and did not provide a written

accounting of the disposition of the security deposit within 30 days of their moving out.

6

8

6.

8.

Zheng offered no evidence that the Ellises improperly terminated the lease, or that

they caused any damage to the House. Nor did Zheng offer any evidence that she suffered any

9 damages as a result of actions by the Ellises.
CONCLUSIONS OF LAW

10
11

I.

The lease does not contain an early lease termination provision. Therefore. Zheng

i9

" is not entitled to damages because the lease terminated prior to its expiration date.

13

2.

Zheng has failed to satisfy her burden of proof that the Ellises breached the lease.

14
Zheng has failed to satisfy her burden of proof that the Ellises committed any torts against her.
15
j Zheng has failed to satisfy her burden of proof that she suffered any damages as a result of
jy actions taken by the Ellises.
18

2

Therefore, Zheng is not entitled to prevail on her claims against the Ellises or

19 recover any damages from the Ellises.
20

21

IT IS THEREFORE ORDERED that the clerk of the court is directed to enter judgment
against Zheng and in favor of the Ellises on Zheng's counterclaims.

22
23

DATED this 16th day of October, 2018.

ANDREW P. GORDON
UNITED STATES DISTRICT JUDGE

2

Appx.013

APPENDIX C

APPENDIX C
Appx.014

Case 2:16-cv-01447-APG-NJK Document 63 Filed 10/16/18 Page 1 of 1
AO450 (NVD Rev. 2/! 8) Judgment in a Civil Case

United States District Court
DISTRICT OF NEVADA
Christina Ellis
Jonathan Ellis

JUDGMENT IN A CIVIL CASE
Plaintiff,

v.

Case Number: 2:16-cv-0l447-APG-NJK

Jing Shu Zheng
i

Defendant.

:

Jury Verdict. This action came before the Court for a trial by jury. The issues have been tried and
the jury has rendered its verdict.
X

i

Decision by Court. This action came to trial or hearing before the Court. The issues have been tried
or heard and a decision has been rendered.

i

Decision by Court. This action came for consideration before the Court. The issues have been
considered and a decision has been rendered.

i

IT IS ORDERED AND ADJUDGED
that judgment is hereby entered on counterclaims in favor of Christina and Jonathan Ellis against Jing Shu
Zheng

i
i

I
i

i

October 16,2018
Date

\
DEBRA K. KEMPI
Clerk

i

i

/s/ J. Matott
Deputy Clerk
1

Appx.015

9K)xddv

a xia\:iciav

a xiaNaaav

Case 2:16-cv-01447-APG-NJK Document 65 Filed 10/17/18 Page 1 of 1

UNITED STATES DISTRICT COURT

1

DISTRICT OF NEVADA

2

***

3
4
5

UNITED STATES OF AMERICA ex rel.
CHRISTINA ELLIS and JONATHAN
ELLIS, Relators,
Plaintiffs,

6
7
8
9

v.

Case No. 2:16-cv-01447-APG-NJK
ORDER FOR ENTRY OF FINAL
JUDGMENT IN FAVOR OF
PLAINTIFFS AND AGAINST
DEFENDANT

JING SHU ZHENG and SJ 5318
INVESTMENT CORP.,
Defendants.

10
11
12

I previously granted summary judgment in favor of plaintiff United States of America ex.

13 rel. Christina Ellis and Jonathan Ellis. ECF No. 28. Judgment was not entered at that time
14 because counterclaims were pending. I later denied the counterclaims and judgment has been
15 entered as to the counterclaims. ECF Nos. 62, 63. I now direct the clerk of court to enter final
16 judgment in the plaintiffs favor.
17

IT IS THEREFORE ORDERED that the clerk of the court is directed to enter judgment

18 against defendant Jing Shu Zheng and in favor of the United States of America ex. rel. Christina
19 Ellis and Jonathan Ellis in the amount of $121,000.00 for a penalty and $56,316.00 in damages,
20 for a total judgment of $177,316.00.
21

DATED this 17th day of October, 2018.

22
23

ANDREW P. GORDON
UNITED STATES DISTRICT JUDGE

Appx.017

i

APPENDIX E

/

APPENDIX E
Appx.018

Case 2:16-cv~01447-APG-NJK Document 66 Filed 10/18/18 Page 1 of 1
AO450 (NVD Rev. 2/18) Judgment in a Civil Case

United States District Court
DISTRICT OF NEVADA
UNITED STATES OF AMERICA ex rel.
CHRISTINA ELLIS, JONATHAN ELLIS

JUDGMENT IN A CIVIL CASE

Plaintiffs,
v.

Case Number: 2:16-cv-01447-APG-NJK

JING SHU ZHENG and SJ 5318
INVESTMENT CORP.
Defendants.
Jury Verdict. This action came before the Court for a trial by jury. The issues have been tried and
the jury has rendered its verdict.
Decision by Court. This action came to trial or hearing before the Court. The issues have been tried
or heard and a decision has been rendered.
X

Decision by Court. This action came for consideration before the Court. The issues have been
considered and a decision has been rendered.

IT IS ORDERED AND ADJUDGED
that judgment is hereby entered against defendant Jing Shu Zheng and in favor of the United States of
America ex. rel. Christina Ellis and Jonathan Ellis in the amount of $121,000.00 for a penalty and $56,316.00
in damages, for a total judgment of $177,316.00.

October 18, 2018
Date

DEBRA K. KEMPI
Clerk

/s/ J. Matott
Deputy Clerk

Appx.019

i

APPENDIX F

-j

APPENDIX F
Appx.020

a.se: 18-17248, 0:1/03/2020 ID: 11550752, DkEt3ry: 3^-1, Raya 1 of 5

NOT FOR PUBLICATION
.UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
CHRISTINA ELLIS; JONATHAN ELLIS,
Relators; ex rel. United States of America,
Plaintiffs-Appellees,

No.

FILED
APR 3 2020
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

18-17248

D.C.No.
2:16-cv-01447-APG-NJK

and
MEMORANDUM*
UNITED STATES OF AMERICA,
Plaintiff,
v.

JING SHU ZHENG,
Defendant-Appe 1 lant,
and
SJ 5308 INVESTMENT GROUP,
Defendant.
Appeal from the United States District Court
for the District of Nevada
Andrew P. Gordon, District Judge, Presiding

This disposition is not appropriate for publication and is not precedent
except as provided by Ninth Circuit Rule 36-3.

Appx.021

Page 2 of 5
Submitted March 25, 2020"
Las Vegas, Nevada
Before: W. FLETCHER, BYBEE, and WATFORD, Circuit Judges.
Jing Shu Zheng appeals from the district court’s order granting summary
judgment in favor of Christina and Jonathan Ellis on their claim under the False
Claims Act (FCA). We affirm.
1. The district court correctly found no triable issue of material fact as to
Zheng’s liability under the FCA. It is true, as Zheng argues, that the Housing
Agreement Plan (HAP) does not bear her signature. But that fact is irrelevant
because the evidence clearly shows that Jay Hsu signed the document as her agent.
Hsu worked for the company that Zheng concedes acted as her authorized agent
(SJ 5318), and Zheng admitted in her counterclaim disclosures that Hsu was her
agent.
No reasonable factfinder could conclude, on the basis of the summary
judgment record, that Hsu enrolled Zheng in the Section 8 voucher program
without her knowledge or authorization. Zheng herself signed the Request for
Tenancy Approval, which represented that she had agreed to charge the Ellises
only $2,000 per month in rent, and she herself received the notices of adjustment

**

The panel unanimously concludes this case is suitable for decision
without oral argument. See Fed. R. App. P. 34(a)(2).

Appx.022

Case. 1CM724S. 04/03/2020. ID: 1l650752. OkiEnoy 34-1. Psgs 3 of 5

Page 3 of 5
of payment from the Southern Nevada Regional Housing Authority (SNRHA),
which also stated that the contractually agreed upon rent was $2,000 per month.
Yet the undisputed evidence shows that Zheng charged the Ellises $2,300 per
month, and that she received two separate payments from them each month: one
for the difference between $2,000 and the amount Zheng received in housing
assistance payments from SNRHA; and another for the extra $300 per month
Zheng was charging the Ellises. Zheng has offered no plausible explanation for
why she received payments in this fashion if she had not agreed to participate in
the Section 8 voucher program, or any explanation at all for why she would have
believed herself entitled to receive payments from SNRHA in the first place. The
evidence thus clearly shows that Zheng knowingly committed fraud on the
government by collecting more in rent than she was authorized to charge.
2. The district court did not clearly err in calculating the amount Zheng
must pay in damages and penalties. First, the court correctly held, in calculating
the penalties owed under the FCA, that each check Zheng received from SNRHA
was its own “claim against the government fisc” and thus its own separate FCA
violation. United States ex rel. Hendow v. Univ. ofPhx., 461 F.3d 1166, 1177 (9th
Cir. 2006). The district court appropriately imposed the lowest penalty per
violation authorized by the regulations—$5,500—for a total of $121,000 in
penalties based on the 22 violations Zheng committed. See 31 U.S.C.

Appx.023

a.vi.i' IS-'

243 04/03/2020, ;D: 142250752. DkiEEnrry: 34- ;. Page 4 of 5

Page 4 of 5
§ 3729(a)(1); 28 C.F.R. § 85.3(a)(9).
Second, the court properly calculated the amount owed in damages.
Because the FCA is concerned with fraud on the government, damages are
determined not by how much Zheng overcharged the Ellises, but rather by how
much Zheng overcharged the government—that is, the amounts she received from
the government without lawful entitlement. The HAP stated that Zheng would not
be entitled to any funds from the government if, as occurred here, she failed to
comply with the terms of the agreement. Accordingly, the damages owed are the
entire amount Zheng received from the government. See United States v. Mackby,
339 F.3d 1013, 1018-19 (9th Cir. 2003).
3. The penalties imposed by the district court are substantial, but they do not
violate the Excessive Fines Clause of the Eighth Amendment. The FCA
deliberately prescribes harsh penalties, reflecting Congress’s judgment that
committing fraud on the government is a serious offense. See 31 U.S.C.
§ 3729(a)(1); United States v. Bourseau, 531 F.3d 1159, 1173-74 (9th Cir. 2008).
The district court could have imposed double the penalty per violation. See
Mackby, 339 F.3d at 1018 (“We may properly consider the maximum penalty
prescribed by Congress as part of our Excessive Fines Clause inquiry.”). Indeed,
we have never found an FCA penalty within the range permitted by Congress to
violate the Excessive Fines Clause. See Bourseau, 531 F.3d at 1173. Taking into

Appx.024

uase;

o-O '24tf, 04As3/2:O2U. ID: 1 1550752, Dk-i-ntry: 30-1, Fsae 5 of 5

Page 5 of 5
account the severity of the crime, as adjudged by Congress, the harm to the
government, and the difference between the fine imposed and the penalties
authorized, the fine imposed on Zheng does not violate the Eighth Amendment.
AFFIRMED.

Appx.025

APPENDIX G

APPENDIX G
Appx.026

Case: 18-1 /243, 05/13/2020. !D: 1 1689240. Dk'Entry: 35: Page 1 of 1

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

FILED
MAY 13 2020
MOLLY C. DWYER. CLERK
U.S. COURT OF APPEALS

CHRISTINA ELLIS; JONATHAN ELLIS,
Relators; ex rel. United States of America,

No.

18-17248

and

D.C. No.
2:16-cv-01447-APG-NJK
District of Nevada,
Las Vegas

UNITED STATES OF AMERICA,

ORDER

Plaintiffs-Appellees,

Plaintiff,
v.
JING SHU ZHENG,
Defendant-Appellant,
and
SJ 5308 INVESTMENT GROUP,
Defendant.
Before: W. FLETCHER, BYBEE, and WATFORD, Circuit Judges.
The panel unanimously votes to deny the petition for panel rehearing.
Judges W. Fletcher and Watford vote to deny the petition for rehearing en banc,
and Judge By bee so recommends. The full court has been advised of the petition
for rehearing en banc, and no judge requested a vote on whether to rehear the
matter en banc. Fed. R. App. P. 35. The petition for panel rehearing and rehearing
en banc, filed April 17, 2020, is DENIED.

Appx.027

L

>

APPENDIX H

APPENDIX H
Appx.028

U"
Case- 13-17243. 05/20/2020, iD: 11395331. OktEntry: 38, Page 1 of 1

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

FILED
MAY 20 2020
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

CHRISTINA ELLIS; JONATHAN ELLIS,
Relators; ex rel. United States of America,

No.

18-17248

and

D.C.No.
2:16-cv-01447-APG-NJK
District of Nevada,
Las Vegas

UNITED STATES OF AMERICA

ORDER

Plaintiffs-Appellees,

Plaintiff,
v.
JING SHU ZHENG,
Defendant-Appellant,
and
SJ 5308 INVESTMENT GROUP,
Defendant.
Before: W. FLETCHER, BYBEE, and WATFORD, Circuit Judges.
Appellant’s motion to stay the mandate is GRANTED. The mandate is
stayed for a period of 150 days from the date of this order. If Appellant files a
petition for writ of certiorari in the United States Supreme Court during the period
of the stay, the stay shall continue until final disposition by the Supreme Court.
See Fed. R. App. P.41.

Appx.029

